ES, IG-98-013, Dissemination of Earth Science Program Data and Information
DISSEMINATION OF EARTH SCIENCE PROGRAM
DATA AND INFORMATION
IG-98-013
Executive Summary
Introduction
The Earth Science Program is a scientific endeavor seeking to
provide understanding of the Earth and how it is changing, both
naturally and as the result of human interaction.  The Earth Science
Program comprises integrated spacecraft and measurement capabilities;
information management systems to acquire, process, archive, and
distribute global data sets; and research and analysis programs
to convert data into new knowledge of the Earth.
Audit Objective
The audit objectives were to determine whether (1) NASA's efforts
to disseminate Earth Science Program information accomplish the
program's goals and (2) NASA explored cost-efficient and effective
methods to disseminate Earth Science Program information.
Results of Audit
Earth Science Program and Earth Science Data and Information System
(ESDIS) project officials have made significant strides toward
creating an advanced system network capable of disseminating the
program's data and information products.  Further, the Distributed
Active Archive Centers (DAACs) have taken initiatives to enhance
services by creating web sites and products that will make Earth
Science Program data and information more accessible (Exhibit
1 highlights DAAC management best practices that successfully
improved operations through reinvention and innovation). The audit
showed that Earth Science Program data and information products
are designed to support the scientific research community.  Although
stated Agency goals are to disseminate and enable the productive
use of Earth science data and information by a broad spectrum
of users, the Earth Science Program is not meeting its goals.
The program is not meeting its goals because four of the five
intended user groups are not making significant use of the program's
data and information products.  We were unable to evaluate the
cost-effectiveness of dissemination efforts because neither NASA
nor the DAACs account for dissemination costs.
Recommendations
We made recommendations to establish and fund a formal outreach
plan to focus dissemination efforts on nonscientific customers
and to integrate customers more fully into ESDIS data dissemination
activities.  Management concurred with the report recommendations,
and we consider planned actions responsive.